IN THE SUPREME COURT OF THE UNITED STATES
On Writ of Certiorari to the United States Circuit Court of Appeals
For the Seventh Circuit

PROOF OF SERVICE
To:

Office of the Clerk
Supreme Court of The United States
Washington, DC 20543-0001
From:
William Bransford
New Lisbon Correctional Institution
P.O. Box 2000
New Lisbon, WI 53950
Re: CASE NO. 2:20 -cv-00462 -JPS
APPEAL NO. 20 - 3307
I William Bransford, petitioner pro se; do hereby swear being aware of the penalties of perjury
that 1 placed the writ of certiorari in the above captioned action in the New Lisbon Correctional
Institution mailing system on this

XT1*) day

of July, 2021, and first class postage was paid via

disbursement request DOC-180 which constitutes a filing with the clerk of courts at the time placed in
the prison mail, Houston v. Lack, 487 U.S. 268 (1988). I have provided an envelope properly
addressed to the State of Wisconsin Department of Justice, P.O. Box 7857, Madison, WI 53707-7857
with sufficient postage to allow for first class delivery via the USPS. The envelope contained a copy
of the writ of certiorari and appendix.

Dated this

ZTt-h

day of July, 2021

Respectfully, Submitted

State of: Wisconsin__________ _
County of:
Subscribed aap sworn to before me this
day ofy^V in the year 20^7
Rhonda G Cordero, Notary Public
My Commission Expires August 15,2025

iif^ U
\\ p^Jgi

RBagvBM'
AUG - 2 2021
DHUERCTL5RSK

